No. 20A84
IN THE

~upreme Ql:ourt of tbe mniteb ~tateg
REPUBLICAN PARTY OF PENNSYLVANIA,

Petitioner-Applicant,
V.

KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS
PENNSYLVANIA SECRETARY OF STATE, ET AL.,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Reply in Support of Emergency Application for Injunction
Pending Certiorari Review, in Republican Party of Pennsylvania v. Boockvar, No.
20A84, was served via overnight mail on all parties required:
Jay Alan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave. NW, Suite 200
Washington, D.C. 20006
(202) 546-8890
jsekulow@claglaw.com

John Bartley DeLone
ATTORNEY GENERAL'S OFFICE
Pennsylvania Office of Attorney
General - Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov

Counsel for Donald J. Trump for
President, Inc.

Counsel for Respondent Secretary of
State Kathy Boockvar

j

lI

Donald B. Verrilli Jr.
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1101
donald.verrilli@mto.com

Joseph Matthias Cosgrove
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704-0000
(570) 287-2400
jmcosgro@msn.com

Counsel for Respondent
Pennsylvania Democratic Party

Counsel for Respondent
Luzerne County Board of Elections

Jason Brett Torchinsky
HOLTZMAN VOGEL JOSEF1AK
TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
J torchinsky@hvjt.law

Richard P. Limburg
OBERMAYER REBMANN MAXWELL
& HIPPELLLP
1500 Market Street, Suite 3400
Philadelphia, PA 19102
(215) 665-3000
richard.limburg@obermayer.com

Counsel for Petitioners
Joseph B. Scarnati, III, et al.

Counsel for Respondents Sen. Joseph
Scarnati and Sen. Jake Corman

Zachary M. Wallen
CHALMERS & ADAMS LLC
301 South Hills Village Drive
Suite LL200-420
Pittsburgh, PA 15102
(412) 200-0842
zwallen@cpblawgroup.com

Krista-Ann M. Staley
BABST GALLAND
Two Gateway Center
603 Stanwix Street, 6th Floor
Pittsburgh, PA 15222
(412) 394-5400
kstaley@babstcalland.com

Counsel for Respondents Speaker Bryan Counsel for Respondents Boards of
Cutler and Rep. Kerry Benninghoff
Elections of Armstrong, Bedford, Blair,
Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna,
Lawrence,
Lebanon,
Montour,
Northumberland, Venango, and York
Counties

Frank J. Lavery, Jr.
LAVERY LAW
225 Market Street, Suite 304
Harrisburg, PA 17108-1245
(717) 233-6633
flavery@laverylaw.com

Robert Grimm
SWARTZ CAMPBELL
600 Grant Street, Suite 4750
Pittsburgh, PA 15219
(412) 232-9800
rgrimm@swartzcampbell.com

Counsel for Respondents Boards of
Counsel for Respondent Washington
Elections of Franklin and Perry Counties County Board of Elections
Stephen S. Snook
BMZLaw, PC
20 S Wayne St
Lewistown, PA 17044-2145
(717) 363-0342
info@bmzlaw.com

Michele D. Hangley
HANGLEY ARONCHICK SEGAL
PUDLIN & SCHILLER
One Logan Square, 27th Floor
Philadelphia, PA 19103
(215) 496-7061
mhangley@hangley.com

Counsel for Mifflin County Board of
Elections

Counsel for Respondent Boards of
Elections of Bucks, Chester,
Montgomery, and Philadelphia
Counties

Allan Joseph Opsitnick
OPSITNICK & ASSOCIATES
564 Forbes Avenue #1301
Pittsburgh, PA 15219
(412) 391-3299
aopsitnick@opsitnickslaw.com

Brian J. Taylor
KING, SPRY, HERMAN, FREUND &
FAUL
One West Broad St., Ste. 700
Bethlehem, PA 18018
(610) 332-0390
btaylor@kingspry.com

Counsel for Respondent Allegheny
County Board of Elections

Counsel for Respondent Northampton
County Board of Elections

Carl John Zwick
ZWICK LAW
171 Beaver Drive, PO Box 1127
Dubois, PA 15801
(814) 371-6400
cjz@zwick-law.com

Christina Lee Hausner
150 N. Queen Street, Suite 714
Lancaster, PA 17603
(717) 735-1584
chausner@co.lancaster.pa. us

Counsel for Respondent Jefferson
County Board of Elections

Counsel for Respondent Lancaster
County Board of Elections

-- --

------

Christopher P. Gabriel
2605 Nicholson Rd., Suite 2201
Sewickley, PA 15143
(412) 395-1275
cgabriel@cfwws.com

David Allen Regoli
333 Freeport Street, Suite 201
New Kensington, PA 15068
(724) 335-0500
regoli@regolilaw.com

Counsel for Respondents Boards of
Elections of Clarion and Tioga Counties

Counsel for Respondent Westmoreland
County Board of Elections

Edward David Rogers
BALLARD SPAHR LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103
(215) 864-8144
rogerse@ballardspahr.com

Gerard J. Geiger
NEWMAN WILLIAMS, P.C.
712 Monroe Street
Stroudsburg, PA 18360
(570) 421-9090
ggeiger@newmanwilliams.com

Counsel for Respondent Delaware
County Board of Elections

Counsel for Respondents Boards of
Elections of Carbon, Monroe, Pike,
Snyder, and Wayne Counties

H. William White III
124 West Diamond St
Butler, PA 16003
(724) 284-5100
wwhite@co.butler.pa.us

Jonathan Lee DeWald
433 Market Street
Williamsport, PA 17701
(570) 326-6555
jdewald@mpvhlaw.com

Counsel for Respondent Butler County
Board of Elections

Counsel for Respondent Union County
Board of Elections

Larry E. Coploff
PO Box 389
Lock Haven, PA 17745
(570) 748-7771
lec@crwlaw.net

Molly Ruth Mudd
111 Baltimore Street
Gettysburg, PA 17325
(717) 337-5911
mmudd@adamscounty.us

Counsel for Respondent Clinton County
Board of Elections

Counsel for Respondent Adams County
Board of Elections

Nathan W. Karn
401-03 Allegheny Street
PO Box 415
Hollidaysburg, PA 16648
(814) 695-7581
nkarn@eveyblack.com

Robert D. Schaub
ROSENN JENKINS & GREENWALD
LLP
15 South Franklin Street
Wilkes-Barre, PA 18612
(570) 826-5652
rschaub@rjgla w .com

Counsel for Respondent Blair County
Board of Elections

Counsel for Respondent Susquehanna
County Board of Elections

Robert Eugene Grimm
2698 Morgantown Road
Smithfield, PA 15478
(724) 569-2819
lawyergrimm@hotmail.com

Thomas M. Caffrey
P.O. Box A
Coplay, PA 18037-0200
(610) 434-4418
tcaffrey@rcn.com

Counsel for Respondent Greene County
Board of Elections

Counsel for Respondent Lehigh County
Board of Elections

Thomas George Wagner
MEYER WAGNER BRAUN & KRAUS
115 Lafayette Street
Saint Marys, PA 15857
(814) 781-3445
twagner@mwbklaw.com

Thomas R. Shaffer
GLASSMIRE & SHAFFER LAW
5 East Third Street
Coudersport, PA 16915
(814) 274-7292
tomshaffer@verizon.net

Counsel for Respondent Elk County
Board of Elections

Counsel for Respondent Potter County
Board of Elections

Thomas S. Talarico
TALARICO & ASSOCIATES
510 Cranberry Street, Suite 301
Erie, PA 16507
(814) 459-44 72
ttalarico@nwpalawyers.com

William Gleason Barbin
206 Main Street
Johnstown, PA 15901
(814) 535-5561
britanderson2002@yahoo.com

Counsel for Respondent Erie County
Board of Elections

Counsel for Respondent Cambria
County Board of Elections

William J. Madden
165 Euclid Avenue
Sharon, PA 16146
(724) 342-1300
wjmpc@verizon.net

Christine D. Steere
DEASEY, MAHONEY & VALENTINI,
LTD.
103 Chesley Drive, Suite 101
Media, PA 19063
(610) 892-2732
csteere@dmvlawfirm.com

Counsel for Respondent Mercer County
Board of Elections

Counsel for Respondent Berks County
Board of Elections

Raymond Edward Ginn, Jr.
GINN & VICKERY PC
99 Main Street
Wellsboro, PA 16901
(570) 724-6600
reg@gv-law.com

Wyoming County Board of Elections
1 Courthouse Square
Tunkhannock, PA 18657

Counsel for Respondent Tioga County
Board of Elections

Respondent Wyoming County Board of
Elections

Bureau of Elections
Beaver County Courthouse
810 Third Street
Beaver, PA 15009

Bradford County Board of Elections
Bradford County Courthouse Annex
6 Court Street, Suite 2
Towanda, PA 18848

Respondent Beaver County Board of
Elections

Respondent Bradford County Board of
Elections

Cameron County Board of Elections
Cameron County Courthouse
20 E. 5th St.
Emporium, PA 15834

Clearfield County Board of Elections
212 East Locust St.
Clearfield, PA 16830

Respondent Cameron County Board of
Elections

Respondent Clearfield County Board of
Elections

Crawford County Board of Elections
Courthouse
903 Diamond Park
Meadville, PA 16335

Cumberland County Board of Elections
1601 Ritner Hwy, Suite 201
Carlisle, PA 17013

Respondent Crawford County Board of
Elections

Respondent Cumberland County Board
of Elections

Forest County Board of Elections
526 Elm Street, Box 3
Tionesta, PA 16353

Fulton County Board of Elections
116 West Market Street, Suite 205
McConnellsburg, PA 17233

Respondent Forest County Board of
Elections

Respondent Fulton County Board of
Elections

Juniata County Board of Elections
P.O. Box 68,
Mifflintown, PA 17059

Lycoming County Board of Elections
48 West Third Street,
Williamsport, PA 17701

Respondent Juniata County Board of
Elections

Respondent Lycoming County Board of
Elections

McKean County Board of Elections
500 WMain St
Smethport, PA 16749

Schuylkill County Board of Elections
420 North Centre Street
Pottsville, PA 17901

Respondent McKean County Board of
Elections

Respondent Schuylkill County Board of
Elections

Somerset County Board of Elections
300 North Center Avenue
Suite 340
Somerset, PA 15501

Sullivan County Board of Elections
245 Muncy Street
P.O. Box 157
Laporte, PA 18626

Respondent Somerset County Board of
Elections

Respondent Sullivan County Board of
Elections

Warren County Board of Elections
204 4th Avenue,
Warren, PA 16365

Respondent Warren County Board of
Elections

I declare under penalty of perjury that the foregoing is true and co~
Date: November 9, 2020

£

hf;;!~ re

